HHS/OIG, Audit -"Review of Family Planning Service Costs Claimed by Virginia's Medicaid Managed Care Program,"(A-03-04-00209)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Family Planning Service Costs Claimed by Virginia's Medicaid Managed Care Program," (A-03-04-00209)
June 2, 2005
Complete
Text of Report is available in PDF format (428 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Virginia claimed family planning service costs under its Medicaid
managed care program in accordance with its methodology and Federal statutes, regulations, and guidelines.  Virginia
did not claim family planning service costs in accordance with its methodology.  Virginia included
the following ineligible costs in the numerator of its family planning factor calculations:  (1)
family planning service costs for beneficiaries not eligible to enroll in managed care and not represented
in the denominator; and (2) services that did not qualify as family planning.  As a result, Virginia
overstated its claims for family planning service costs by $3.7 million.  By claiming these costs
at the enhanced family planning rate of 90 percent, rather than its regular Federal share of about
50 percent, Virginia received approximately $1.4 million in unallowable Federal reimbursement.  We
recommended that Virginia refund to the Federal Government $1,388,506 million in family planning service
costs incorrectly claimed between April 2001 and March 2004.  We also recommended that Virginia
apply the audited factor of 1.43 percent for claims after March 2004 and refund the Federal share of
any overpayments.  Virginia concurred with both recommendations.